Pe
I

OCKLE

2311 Douglas Street Ne : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B rh . Fs contact@cocklelegalbriefs.com
Est. 19
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
gi

Fax: (402) 342-4850

No. 21-144

SEATTLE’S UNION GOSPEL MISSION,
Petitioner,
Vv.
MATTHEW S. WOODS.
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF SAMARITAN’S
PURSE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5200 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d). as needed.

Subscribed and sworn to before me this 30th day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska ) / A Chhy
RENEE J. GOSS 9. c

Affiant 41358

 

My Comm. Exp. September 5, 2023

 

Notary Public
